<html>
<title> - A LEGISLATIVE HEARING ON FOUR COMMUNICATIONS BILLS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









           A LEGISLATIVE HEARING ON FOUR COMMUNICATIONS BILLS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 12, 2016

                               __________

                           Serial No. 114-110


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                        
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-924                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                       
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Missouri               JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             JOHN A. YARMUTH, Kentucky
LEONARD LANCE, New Jersey            YVETTE D. CLARKE, New York
BRETT GUTHRIE, Kentucky              DAVID LOEBSACK, Iowa
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               JERRY McNERNEY, California
BILLY LONG, Missouri                 BEN RAY LUJAN, New Mexico
RENEE L. ELLMERS, North Carolina     FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
KEVIN CRAMER, North Dakota
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)














  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan.......................................................    93

                               Witnesses

Robert McDowell, Partner, Wiley Rein, LLP, Senior Fellow, Hudson 
  Institute......................................................     9
    Prepared statement...........................................    11
Harold Feld, Senior Vice President, Public Knowledge.............    31
    Prepared statement...........................................    33
Elizabeth Bowles, President & Chair of the Board, Aristotle, Inc. 
  (on Behalf of Wireless Internet Service Providers Association).    49
    Prepared statement...........................................    51
    Answers to submitted questions...............................   119

                           Submitted Material

H.R. 2669........................................................    82
H.R. 1301........................................................    86
H.R. 2666........................................................    89
Small Business Broadband Deployment Act..........................    91
Statement of the Amateur Radio Relay League, Inc.................    94
Statement of the Community Associations Institute................   101
Statement of the Federal Communications Commission...............   113
Statement of CTIA--The Wireless Association......................   116
 
           A LEGISLATIVE HEARING ON FOUR COMMUNICATIONS BILLS

                              ----------                              


                       TUESDAY, JANUARY 12, 2016

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2123 Rayburn House Office Building, Hon. Greg Walden 
(chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Shimkus, 
Blackburn, Lance, Guthrie, Kinzinger, Bilirakis, Johnson, 
Collins, Cramer, Eshoo, Doyle, Welch, Clarke, Loebsack, 
DeGette, Butterfield, Matsui, McNerney, and Pallone (ex 
officio).
    Staff present: Ray Baum, Senior Policy Advisor for 
Communications and Technology; Leighton Brown, Deputy Press 
Secretary; Rebecca Card, Assistant Press Secretary; Andy 
Duberstein, Deputy Press Secretary; Gene Fullano, Detailee, 
Telecom; Kelsey Guyselman, Counsel, Telecom; David Redl, 
Counsel, Telecom; Charlotte Savercool, Professional Staff, 
Communications and Technology; Gregory Watson, Legislative 
Clerk, Communications and Technology; Christine Brennan, 
Minority Press Secretary; Jeff Carroll, Minority Staff 
Director; David Goldman, Minority Chief Counsel, Communications 
and Technology; Jerry Leverich, Minority Counsel; Lori 
Maarbjerg, Minority FCC Detailee; and Ryan Skukowski, Minority 
Policy Analyst.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I will call to order the subcommittee on 
Communications and Technology and welcome everyone here for our 
first hearing of 2016.
    I thank our distinguished panelists for being here to share 
your views on these bills with us today and I want to welcome 
my colleagues back as we get underway in what should be another 
very busy and hopefully productive year for the subcommittee on 
Communications and Technology.
    I would like to thank you all for the great work we have 
done not only last year but over the last few years that have 
produced bipartisan legislation that has become law. And, 
actually, as you look to--I think today's the deadline for 
broadcasters to decide if they are going to participate in the 
auction. Another big auction could be underway, the first of 
its kind, that could produce more revenue for the taxpayers and 
more wireless broadband for people.
    So pretty exciting times in which we live and we will be 
continuing to do oversight on the auction and the issues 
associated with it. We will continue to do oversight on 
FirstNet and those issues as we go forward and other issues 
that members have brought to our attention.
    So look forward to another big and productive year for our 
subcommittee and I thank the great participation that we get.
    Now onto today's hearing. We will hear from a panel of 
distinguished witnesses on four bills, each designed to improve 
the legal and regulatory environment for consumers and small 
businesses.
    First, the subcommittee will consider H.R. 2669. This is 
the Anti-Spoofing Act of 2015 introduced by Representatives 
Meng, Barton, and Lance. It is a reintroduction of legislation 
that came out of this subcommittee last Congress. H.R. 2669 
would extend the provisions of the Truth in Caller ID Act to 
text messaging and VoIP services. This legislation passed the 
House unanimously last Congress. I expect it will enjoy a 
similar level of support in this Congress.
    Second, we will examine H.R. 1301. This is the Amateur 
Radio Parity Act of 2015. As a HAM radio operator and perhaps 
one of the only in Congress, I am acutely aware of the passion 
that amateur radio operators have for their service. Despite 
its widespread use and importance in times of emergency, some 
land-use restrictions in some areas have prioritized aesthetics 
over the rights of HAMs. H.R. 1301 seeks to ensure that amateur 
radio operators get a fair shake and protection from 
unnecessary bans on their equipment by instructing the FCC to 
adopt rules to this end. Now, I know some have said that this 
is opening the door to 40-foot towers in town home backyards. 
That is not the case. HAM equipment can be as small as over-
the-air digital television antennae that are becoming popular 
with cord-cutters. Surely HAM radio operators' communications 
deserve no less protection than access to prime time 
television. This is a common sense bill and I urge my 
colleagues to support it.
    Finally, we will consider two bills that concur with FCC's 
own policy. H.R. 2666, Representative Kinzinger's No Rate 
Regulation of Broadband Internet Access Act, seeks to codify 
the assurances of FCC Chairman Tom Wheeler by prohibiting the 
FCC from using its new authority under the Open Internet Order 
to regulate rates charged for broadband. Simply put, this is 
what President Obama and Chairman Wheeler have stated publicly 
time and again, but put in statutory form. President Obama, in 
his now infamous YouTube directive to the FCC, directed the FCC 
to reclassify broadband under Title II ``while forbearing from 
rate regulation.'' In front of multiple congressional 
committees in both the House and the Senate, Chairman Wheeler 
has continually repeated what he stated succinctly in his 
statement when the FCC adopted the Open Internet Order, that 
``that means no rate regulation, no filing of tariffs and no 
network unbundling.''
    H.R. 2666 simply does what President Obama and Chairman 
Wheeler cannot--it binds future chairmen to live by the 
commitments that this administration has made as to how the 
sweeping authority the FCC granted itself is to be used. Some 
have been critical of this bill, seeking to change the language 
to preclude the use of tariff authority, an authority the FCC 
has already forborne from using, while leaving the Commission 
and its enforcement bureau free to use enforcement authority to 
regulate rates. Rate regulation by after-the-fact second 
guessing is rate regulation nonetheless. We should ensure that 
the specter of rate regulation of broadband is off the table 
permanently.
    In addition to Mr. Kinzinger's rate regulation bill, we 
will also examine a discussion draft of a bill that I am 
offering to make permanent the exception to the Commission's 
enhanced transparency rule for small businesses. In the Open 
Internet Order, the Commission rightly recognized that the work 
required by the enhanced transparency rule would be an undue 
burden on small businesses and it provided a temporary 
exception from the rule. Just last month, the FCC extended that 
exception through the end of 2016.
    While I am sure that small businesses are appreciative of 
the reprieve from the costs of compliance with this rule, the 
reprieve is not a pardon. Small businesses deserve the 
certainty of a permanent exception from this unnecessary 
burden. Additionally, this draft would also harmonize the FCC's 
definition of a small ISP with the definition used by the U.S. 
Small Business Administration. It makes no sense to subject 
businesses to different definitions of small across different 
agencies and deference to the SBA definition ensures that the 
part of the federal government charged with small business 
issues reigns.
    These four bills will ensure that consumers and small 
businesses are protected from unnecessary burdens and misuse of 
the authorities granted in law and I look forward to advancing 
these bills to the House floor as soon as possible. I thank our 
witnesses for being here to discuss the diverse sets of bills 
and I look forward to their counsel.
    I ask unanimous consent now to enter into the record a 
letter from Mr. Chris Imlay, general counsel of the Amateur 
Radio Relay League, expressing support for the Amateur Radio 
Parity Act, as well as a letter from Mr. Thomas Skiba, CEO of 
the Community Association's Institute suggesting changes to the 
legislation from the perspective of homeowners and community 
associations. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. I also want to thank both the ARRL and CAI for 
their comments on this legislation and we look forward to 
working with them and with the ranking member as we advance 
this important legislation.
    I would also like to ask unanimous consent to enter into 
the record a letter from FCC Commissioners Pai and O'Rielly 
expressing concern with the impact of the enhanced transparency 
rule on small businesses and questioning the veracity of the 
FCC's Paperwork Reduction Act analysis. Without objection.
    [The information appears at the conclusion of the hearing.]
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Today the subcommittee will hear from a panel of 
distinguished witnesses on four bills, each designed to improve 
the legal and regulatory environment for consumers and small 
businesses. First, the subcommittee will consider H.R. 2669, 
the Anti-Spoofing Act of 2015. This legislation, introduced by 
Reps. Meng, Barton, and Lance, is a reintroduction of 
legislation that came out of this subcommittee last Congress. 
H.R. 2669 would extend the provisions of the Truth in Caller ID 
Act to text messaging and VoIP services. This legislation 
passed the House unanimously last Congress and I expect it will 
enjoy similar support this Congress.
    Second, we will examine H.R. 1301, the Amateur Radio Parity 
Act of 2015. As a HAM radio operator, I am acutely aware of the 
passion that amateur radio operators have for their service. 
Despite its widespread use and importance in times of 
emergency, land-use restrictions in some areas have prioritized 
aesthetics over the rights of HAMs. H.R. 1301 seeks to ensure 
that HAMs get a fair shake and protection from unnecessary bans 
on their equipment by instructing the FCC to adopt rules to 
this end. Now, I know some have said that this is opening the 
door to 40-foot towers in townhome backyards. Hogwash. HAM 
equipment can be as small as the over-the-air digital 
television antennae that are becoming popular with cord-
cutters. Surely HAM radio operators' communications deserve no 
less protection than access to primetime television. This is a 
common sense bill and I urge my colleagues to support it.
    Finally, we will consider two bills that put me in a 
position I have not been in all that often in the last year: 
agreement with the FCC.
    H.R. 2666, Representative Kinzinger's No Rate Regulation of 
Broadband Internet Access Act seeks to codify the assurances of 
FCC Chairman Tom Wheeler by prohibiting the FCC from using its 
new authority under the Open Internet order to regulate the 
rates charged for broadband. Simply put, this is what President 
Obama and Chairman Wheeler have stated, time and again, in 
statutory form. President Obama, in his now infamous YouTube 
directive to the FCC, directed the FCC to reclassify broadband 
under title II ``while forbearing from rate regulation[.]'' In 
front of multiple Congressional committees, in both the House 
and the Senate, Chairman Wheeler has continually repeated what 
he stated succinctly in his statement when the FCC adopted the 
Open Internet order: ``That means no rate regulation, no filing 
of tariffs, and no network unbundling.''
    H.R. 2666 simply does what President Obama and Chairman 
Wheeler cannot--it binds future chairmen to live by the 
commitments this administration has made as to how the sweeping 
authority the FCC granted itself is to be used. Some have been 
critical of this bill, seeking to change the language to 
preclude the use of tariff authority--an authority the FCC has 
already forborne from using--while leaving the Commission and 
its enforcement bureau free to use enforcement authority to 
regulate rates. Rate regulation by after-the-fact second 
guessing is rate regulation none-the-less. We should ensure 
that the specter of rate regulation of broadband is off the 
table, permanently.
    In addition to Mr. Kinzinger's rate regulation bill, we 
will also examine a discussion draft of a bill that I am 
offering to make permanent the exception to the commission's 
``enhanced transparency rule'' for small businesses. In the 
Open Internet order, the commission rightly recognized that the 
work required by the enhanced transparency rule would be an 
undue burden on small businesses and provided a temporary 
exception from the rule. Just last month, the FCC extended that 
exception through the end of 2016.
    While I am sure that small businesses are appreciative of 
the reprieve from the costs of compliance with this rule, the 
reprieve is not a pardon. Small businesses deserve the 
certainty of a permanent exception from this unnecessary 
burden. Additionally, this draft would also harmonize the FCC's 
definition of small ISP with the definition used by the U.S. 
Small Business Administration. It makes no sense to subject 
businesses to different definitions of ``small'' across 
different agencies and deference to the SBA definition ensures 
that the part of the federal government changed with small 
business issues reigns.
    These four bills will ensure that consumers and small 
businesses are protected from unnecessary burdens and misuse of 
the authorities granted in law and I look forward to advancing 
this bills to the House floor as soon as possible. I thank the 
witnesses for being here to discuss this diverse set of bills 
and look forward to their counsel.

    Mr. Walden. I yield back the balance of my time. I thank 
the committee's indulgence and I recognize the gentlelady from 
California, Ms. Eshoo, for opening comments.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, and happy New Year to 
everyone and thank you to the witnesses.
    It is wonderful to see you, and I want to associate myself 
with what the chairman said about looking forward to this year.
    We have a lot on our plate. There are exciting things that 
are taking place and I think that the full engagement of this 
subcommittee not only in oversight but legislative ideas that 
come up that we will make optimum use of this year.
    It is always said that in the presidential election year 
nothing happens but I don't think that that tagline is going to 
apply to our subcommittee.
    So I too look forward to working with you and with all of 
the members on both sides of the aisle to uphold the work that 
the committee does.
    So today is our first subcommittee meeting of the year and 
we have some important bills in front of us. I think it is a 
mixture of good and perhaps not so good bills. But I think that 
with the key witnesses that we have here today I will raise my 
questions with them.
    First up is H.R. 2666, the No Rate Regulation of Broadband 
Internet Access Act. I agree, Mr. Chairman, about no rate 
regulation. So you can put my name down next to the president, 
to the FCC chairman and Anna Eshoo.
    I am not for the FCC regulating the monthly recurring rate 
that consumers pay for broadband Internet access service. Now, 
consistent with this view, last year, as we all know, Chairman 
Wheeler adopted what some of us call a modern light touch 
approach that foregoes the unnecessary provisions of Title II 
such as rate regulation, tariffing and cost accounting rules.
    At the same time, the commission has an important role to 
play--and this is what I want to highlight on this issue--in 
consumer protection, which includes the billing practices of 
the nation's broadband providers.
    You will recall that I raised the issue over and over again 
of below-the-line fees and I think that in our discussions with 
the witnesses it is something that we really should kind of 
pull apart and examine to make sure that there aren't any 
unintended consequences of the legislation for consumers.
    I think it is an area that we can come to an agreement on 
because it includes discriminatory data caps or some future 
practice that we don't even foresee right now. So I think it is 
an area that we need to take a good look at.
    Secondly, the subcommittee is considering the Small 
Business Broadband Deployment Act. Now, this is proposed so 
that small businesses will not be burdened--small broadband 
providers--and I think that that is very important.
    The bill exempts companies with hundreds of millions in 
annual revenue from complying with the enhanced transparency 
requirements included in the FCC's 2015 Open Internet Order.
    Now, this includes disclosure of promotional rates, fees, 
charges and data caps. But it would leave millions of 
consumers, particularly those in rural areas, with fewer 
protections than those in big cities.
    I think that we can reach some common ground on this and I 
want to work with everyone on this. But I don't think that 
rural areas that are particularly hard hit--when you see the 
report that came out of the FCC, rural areas are really lagging 
behind in our country with broadband.
    Third, while I have been a long-time supporter of amateur 
radio operators including you, Mr. Chairman, and the services 
that they provide--and I have a lot in my district--I do have 
some concerns with the Amateur Radio Parity Act.
    As written, the legislation could violate the rights of 
homeowners associations and that is who I have heard from. So I 
think, again, we have got to take a look at this and make sure 
that we can blend the underlying purpose of this and not stick 
it to the homeowners associations--the HOAs in the country--by 
overruling covenants and easements that are conveyed with the 
purchase of a property from one seller to another.
    And I am proud to be a co-sponsor of Congresswoman Grace 
Meng's legislation, the Anti-Spoofing Act. It is a bipartisan 
bill. It is a good bill.
    I think there are, what, nearly 20 members of the 
subcommittee that are co-sponsors of it and it deserves to move 
forward the way it did before.
    So, again, thank you, Mr. Chairman, for convening this 
hearing. Look forward to this year and I yield back.
    Mr. Walden. I thank the gentlelady for----
    Ms. Eshoo. Yield back though. Thank you for your patience.
    Mr. Walden [continuing]. Comments and we look forward to 
working together on these and other issues this year.
    We turn now to the vice chair of the full committee, the 
gentlelady from Tennessee, Ms. Blackburn. Good morning. 
Welcome.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, and I want to say 
welcome to our witnesses. We are pleased that you are here and 
I am appreciative of the four bills that we are going to 
discuss this morning.
    I want to touch on two of these. First, the Small Business 
Broadband Deployment Act, protecting the small ISPs who really 
don't have the resources to comply with net neutrality's 
enhanced disclosure requirements.
    This is important for us. The small ISPs and serving their 
footprint are many times the way we can increase that access to 
affordable broadband. So we are going to be anxious to talk 
about that and to get your insights on that.
    Secondly, H.R. 2666, which codifies Chairman Wheeler's 
pledge that he made and President Obama's pledge likewise, to 
not engage in rate regulation.
    This is something that is important to us to do. I thought 
it was so interesting last March in Barcelona at the Mobile 
World Congress.
    Chairman Wheeler said, ``This is not regulating the 
Internet. Regulating the Internet is rate regulation, which we 
don't do.''
    We want to make certain that he is good to that promise. 
Rate regulation is something that causes us tremendous concern.
    I appreciate Congressman Kinzinger bringing the legislation 
forward and look forward to a full discussion of that proposal 
with you all.
    And at this time, I yield the balance of the time to Mr. 
Latta.
    Mr. Latta. Well, I appreciate the gentlelady for yielding 
and also thank the chairman for holding today's hearing and I 
would also like to thank our witnesses for being with us today. 
Greatly appreciate it.
    All four bills before us today are good legislative 
measures that will eliminate unnecessary government regulations 
and protect consumers.
    I would like to focus my time on the two bills that stem 
from the FCC's decision to reclassify broadband as a 
telecommunication service under Title II of the Communications 
Act.
    First, they resolved Title II; the FCC extended its 
authority to regulate rates charged for broadband. The threat 
of rate regulation would chill network investments and stifle 
innovation.
    H.R. 2666, of which I am a co-sponsor, would prohibit the 
commission from regulating rates and remove regulatory 
uncertainty for Internet service providers.
    Secondly, the Small Business Broadband Deployment Act would 
help eliminate a burdensome regulation created by Title II by 
making permanent the temporary exemption for small ISPs from 
enhanced transparency requirements.
    Providers in my district have made it clear to me that this 
exemption is vital for their continued operation. I look 
forward to today's hearing and I appreciate the gentlelady 
yielding.
    I yield back.
    Mrs. Blackburn. Yield back.
    Mr. Walden. The gentlelady yields back, and now we will 
turn to the ranking member of the full committee, the gentleman 
from New Jersey, Mr. Pallone.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, and our ranking 
member, Ms. Eshoo, for holding this hearing, and let me also 
thank our witnesses for being here.
    I know you are not strangers to the subcommittee and I 
appreciate your willingness to come up to testify.
    I also appreciate the commitment that Chairman Walden is 
showing to regular order. Legislative hearings like this one we 
are holding today do not simply check a box.
    They help our members and the public better understand the 
potential effects of the bills before us. When the committee is 
given opportunities to make reasonable and thoughtful 
decisions, we end up with better results.
    I am particularly interested in learning more today about 
the bill prohibiting the FCC from regulating rates for 
broadband Internet access. I agree with the sentiment driving 
this bill.
    The commission should not be setting rates for broadband 
access. In fact, we have heard from FCC Chairman Wheeler 
himself that he does not intend to set rates.
    Nonetheless, I have also heard concerns that as drafted 
this bill may result in significant unintended consequences. 
For instance, some believe that it could spur endless 
litigation, leading to uncertainty in the market and deterring 
investment.
    Worse, the bill could seriously curtail the FCC's ability 
to protect consumers. Obviously, that result is not acceptable. 
Today's hearing gives us the chance to learn more about these 
potential consequences and whether the bill can be better 
targeted to avoid these pitfalls.
    I would also look forward to hearing more about the other 
three bills on today's agenda. Amateur radio, transparency into 
service provider practices and prevention of fraudulent caller 
ID are all important topics worthy of a fair hearing.
    But while today's hearing marks a good start for the year, 
I hope that this is only the first legislative hearing we hold.
    I further hope that future hearings include ideas put 
forward by Democratic members such as Congressman Welch's 
Digital Learning Equity Act, Congresswoman Matsui's Spectrum 
Challenge Prize Act, Congressman Lujan's FCC Transparency Act 
and even my own Viewer Protection Act, or SANDy Act.
    All of these bills address pressing issues the American 
people care about and they deserve the opportunity to be heard.
    So with that, I look forward to the rest of the discussion 
and I yield the balance of my time to the gentlewoman from 
California, Ms. Matsui.
    Ms. Matsui. I thank the ranking member for yielding me 
time.
    Two of the bills on our agenda address the FCC's net 
neutrality order. Like millions of Americans who made their 
voices heard last year, I support a free and open Internet.
    At the same time, I do not believe the FCC needs to get 
into the business of regulating consumer broadband rates. 
Chairman Wheeler has also stated many times that he is not 
interested in rate regulation either.
    What I am concerned about is the potential for paid 
prioritization schemes to create fast and slow lanes on the 
Internet and that is why I introduced a bill with Senator Leahy 
to instruct the FCC to write rules to ban paid prioritization, 
and I was pleased that the FCC included a ban on paid 
prioritization in the net neutrality rules.
    I am concerned that the two net neutrality bills we are 
considering today could undermine important consumer 
protections like the paid prioritization rule.
    I do look forward to hearing from today's witnesses about 
all four bills under consideration today. I thank the witnesses 
for being here today and I yield back to the ranking member to 
give time to anybody else, if he so feels. Thank you.
    Mr. Walden. All time has been consumed and yielded back and 
we appreciate the comments of all of our members.
    We will now go to our witnesses and thank them for being 
here: the Honorable Robert McDowell, Partner, Wiley Rein, LLP, 
and Senior Fellow at the Hudson Institute--we thank you for 
being here; Mr. Harold Feld, Senior Vice President, Public 
Knowledge--good to have you back before our committee as well; 
and Ms. Elizabeth Bowles, President and Chair of the board of 
Aristotle, Inc. on behalf of the Wireless Internet Service 
Providers Association. Ms. Bowles, we appreciate your being 
here to testify, too.
    So I think we will start with Mr. McDowell. We have always 
enjoyed having you before the committee and we are glad to have 
you back this time.
    So welcome to--as the first witness in the new year before 
our subcommittee. Don't blow it, OK?

  STATEMENTS OF THE HONORABLE ROBERT MCDOWELL, PARTNER, WILEY 
REIN LLP, SENIOR FELLOW, HUDSON INSTITUTE; HAROLD FELD, SENIOR 
VICE PRESIDENT, PUBLIC KNOWLEDGE; ELIZABETH BOWLES, PRESIDENT & 
  CHAIR OF THE BOARD, ARISTOTLE, INC. (ON BEHALF OF WIRELESS 
            INTERNET SERVICE PROVIDERS ASSOCIATION)

                  STATEMENT OF ROBERT MCDOWELL

    Mr. McDowell. No pressure. Thank you, Mr. Chairman, and 
happy New Year to all distinguished members of the committee 
and Ranking Member Eshoo as well. It is an honor to be here 
again and to be your first witness of 2016.
    And by the way, although I am a partner at Wiley Rein and a 
senior fellow of the Hudson Institute, the opinions I express 
today are strictly my own.
    Congress has a terrific opportunity to pass the legislation 
before this subcommittee today on a bipartisan basis.
    Specifically, and in the observance of time, I will refer 
to just two bills and then we can talk about the other two 
bills later--one being the No Rate Regulation of Broadband 
Internet Access Act and the Small Business Broadband Deployment 
Act.
    As has been pointed out, both President Obama and FCC 
Chairman Wheeler have expressed their opposition to rate 
regulation of broadband services.
    Although in 2014 the president called on the FCC to 
classify broadband services under Title II before it did so 
last year, he also asked that it forebear from rate regulation.
    Similarly, Chairman Wheeler stated last May that broadband 
providers should be, ``free from any limiting rate 
regulation.''
    He also testified before the Senate Appropriations 
Committee that, ``If Congress wants to come along and say 
that's,'' meaning rate regulation, ``is off the table for the 
next commission, I have no difficulty with it.''
    These sentiments also echo the policies of the Clinton-Gore 
White House and the Clinton era FCC under then Chairman Bill 
Kennard.
    They, as well as the Federal Trade Commission on a 
unanimous bipartisan vote in 2007 and the Obama Department of 
Justice, have all warned against regulating the rates of 
broadband networks.
    Why? Because they and scores of independent market 
analysts, entrepreneurs, economists and think tanks agree that 
rate regulation deters investment and constructive 
entrepreneurial risk taking, stifles innovation and would slow 
the evolution of a lightning-fast Internet, and we appear to 
have a bipartisan consensus here today on rate regulation.
    In short, H.R. 2666 merely codifies what Democrats and 
Republicans have been seeking, essentially, for decades: a ban 
on rate regulation of Internet services.
    The bill could benefit, however, from clarifying at least 
two ambiguities. The first would be to make it clear that it 
prohibits all rate regulation including ex post, or after-the-
fact, determinations that rates are unjust or unreasonable. As 
written, it applies only to ex ante, or before-the-fact, 
regulation.
    The second would be to clarify which rates it addresses. 
Currently, with the Open Internet Order the FCC attempted to 
give itself the authority to rate regulate all Internet access 
services including interconnection and peering.
    It is the bipartisan consensus, it appears, that these 
services should not be rate regulated. This bill simply offers 
to codify that bipartisan spirit and hold future FCCs to that 
promise through clear statutory language.
    Similarly, the Small Business Broadband Deployment Act 
would codify on a permanent basis what the FCC has attempted to 
do on a temporary basis, which is to exempt small ISPs from the 
order's transparency requirements.
    As the current regulatory regime now stands, the commission 
will review the exemption on an annual basis, leaving small 
business owners in a perpetual state of limbo.
    There is a lot more to discuss. I do support the other two 
bills and look forward to a robust in-depth discussion of 
amateur radio.
    In 7 years as an FCC commissioner, I think I spent maybe 
ten minutes on amateur radio. But I think five of them are 
renewing your license, Mr. Chairman. So----
    Mr. Walden. I am glad you took a personal interest in it.
    Mr. McDowell. Yes. So I look forward to discussing it. 
Thank you again.
    [The prepared statement of Robert McDowell follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
     
    Mr. Walden. At least I didn't have to take the code test 
again.
    We will now go to Mr. Feld of Public Knowledge. Good to 
have you back before the committee, Mr. Feld. Please go ahead 
with your comments.

                    STATEMENT OF HAROLD FELD

    Mr. Feld. Thank you, Chairman Walden, Ranking Member Eshoo, 
for inviting me here to testify.
    I am pleased to support H.R. 2669, the Anti-Spoofing Act of 
2016, and H.R. 1301, the Amateur Radio Parity Act. Both bills 
are carefully drafted and narrowly tailored to address clear 
and pressing problems.
    As a result, these bills may be seamlessly integrated into 
the Communications Act without unintended consequences. 
Unfortunately, the same cannot be said for the broadband bills 
under consideration.
    Let me start with H.R. 2666, the No Rate Regulation of 
Broadband Internet Access Service Act. As everyone agrees, 
there is no evidence that the FCC plans to start regulating 
broadband prices.
    Supporters support the bill from the fear that a future FCC 
may someday change the policy. Unfortunately, the broad 
sweeping language of H.R. 2666 virtually guarantees a host of 
unintended consequences that are bad for consumers and bad for 
competition.
    The bill prohibits any FCC action under any law to 
``regulate the rates broadband providers charge for broadband 
access.''
    This would appear to prevent FCC enforcement action of laws 
against deceptive billing practices, deliberate overcharges or 
even outright fraud.
    Further, although the bill's supporters claim it leaves the 
core protections of the FCC's net neutrality rules alone, it is 
easy to argue that enforcing the rule against paid 
prioritization or prohibiting providers from favoring their own 
content and services either directly or indirectly regulates 
the rates charged for broadband Internet access service.
    Finally, the bill's broad sweeping language will disrupt 
the FCC's ongoing efforts to reform the Universal Service Fund. 
The proposed bill's broad sweeping language would force the FCC 
to halt and perhaps discontinue the already complicated process 
of making broadband in rural America affordable, as affordable, 
of course, is a price regulation.
    Similarly, the proposed Small Business Broadband Deployment 
Act raises the spectre of significant unintended consequences.
    Consider the impact on the millions of residential and 
small business subscribers the bill strips of the protections 
of transparency.
    This puts every family-owned business at risk from fly-by-
night providers that the proposed legislation will render 
unaccountable for incomplete and dishonest disclosure.
    The proposed Small Business Broadband Deployment bill will 
create an incentive for small business broadband subscribers to 
select national providers over local small providers so that 
their businesses can enjoy the full protection of the 
transparency rule.
    It would be ironic if, in the haste to protect small 
broadband providers from possible paperwork, the proposed bill 
accidentally drives away the very small business customers 
these small providers need to survive.
    Finally, the bill expands the size of the current FCC 
exemption to providers with up to 1,500 employees or 500,000 
subscribers.
    These providers, which most of us would consider mid-size 
providers rather than small providers, are already subject to 
the FCC's transparency rules. Nothing since the rules went into 
effect shows that these larger firms need relief.
    Nevertheless, the bill strips millions of consumers and 
small business subscribers of valuable protections they 
currently enjoy.
    Bluntly, before Congress strips millions of people of 
important protections against fraud and abuse, it should have 
clear evidence of a real need and should narrowly tailor the 
language to address that need.
    At the very least, making the small business exemption 
through the commission's enhanced transparency rules is 
premature. The FCC has not yet finished its paperwork reduction 
analysis or adopted a final rule.
    At a minimum, Congress should wait for the FCC to assess 
the burden estimates submitted by stakeholders and see whether 
the FCC adopts stakeholder suggestions such as those made by 
the ACA to minimize the estimated burden.
    Let me conclude with this analogy. We have all experienced 
the frustration of downloading an update to our phone or laptop 
and discovering that a poorly written line of code has created 
a new security breach or caused key applications to crash.
    The same unfortunate leak can happen with the 
Communications Act. Rushing to pass bills with broad sweeping 
language to address vaguely defined hypothetical problems will 
create bugs in our legal code that bad actors can exploit and 
will crash FCC efforts to bring affordable broadband to all 
Americans.
    Congress should not release this legal software update 
until it has been thoroughly debugged and checked for 
compatibility with the existing operating system.
    Thank you, and I am happy to answer any further questions 
you may have.
    [The prepared statement of Harold Feld follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
     
    Mr. Walden. Thank you, Mr. Feld.
    We will now go to Ms. Bowles. Thank you for being here. We 
look forward to your testimony as well.

                 STATEMENT OF ELIZABETH BOWLES

    Ms. Bowles. Thank you for having me.
    Chairman Walden, Ranking Member Eshoo, members of the 
subcommittee, I appreciate the opportunity to be here today. I 
am going to limit my remarks in the interest of time to the 
H.R. 2666 and the Small Business Broadband Deployment Act.
    WISPA represents the interests of more than 800 providers 
all over the United States and my company, Aristotle, provides 
broadband service to approximately 800 residential and business 
subscribers in central Arkansas including small underserved 
rural Arkansas communities such as Sardis, Vilonia, and Shannon 
Hills.
    Our members use unlicensed spectrum primarily to provide 
broadband to underserved areas that are not cost effective for 
traditional wireline companies to serve and they operate in 
diverse communities like Scott, Arkansas, Stony Bridge, Ohio, 
and La Grande, Oregon, all of which are very small towns. 
Scott, for example, has 72 people.
    There are hundreds of other places where service from a 
WISP may be the only terrestrial means to access the Internet 
and the vast majority of our members have built their networks 
without the benefit of federal subsidies.
    Under any definition, nearly all of WISPA's members 
including my company are small businesses. Some WISPs have only 
a handful of employees who do everything from climbing the 
towers to doing the accounting to customer service.
    According to the FCC, 17 broadband access providers serve 
93 percent of the population. The remaining 7 percent--21 
million people--is served by the over 3,000 broadband Internet 
access providers that are considered small ISPs.
    As Congresswoman Eshoo said, what is going on in rural 
America is critical. We have to get broadband into rural 
America and the 3,000 small ISPs are bringing that service to 
those people.
    WISPA believes in an open Internet and in the effectiveness 
of the 2010 ``light touch'' regulatory regime. My company has 
never throttled, never capped usage nor required anyone to pay 
to prioritize traffic.
    The FCC's reclassification of broadband as a Title II 
service was misguided and WISPA is concerned about the effects 
that the 2015 order will have on small businesses.
    My company is already feeling the impact of the FCC's 
rules. Because of the risks and costs imposed by the order, 
Aristotle has reassessed its plan to expand its service pending 
the clarification of the regulatory regime.
    Instead of expanding our network to cover a three-county 
area, we are now deploying in three smaller communities. We 
cannot justify a greater investment in light of regulatory 
uncertainty.
    Small businesses, those with providers of 100,000 or fewer, 
are temporarily exempt from the new enhanced disclosure 
requirements. But the uncertainty still exists.
    The FCC's decisions may have provided short-term relief but 
the agency failed on two occasions to make the exemption 
permanent despite an overwhelming record supporting that move.
    First of all, the FCC received not a single comment 
alleging that small ISPs were flaunting the 2010 disclosure 
rules or that those rules were insufficient to protect 
consumers.
    In fact, the records show that consumers, including rural 
consumers, will bear the cost burden as small businesses are 
forced to pass on additional regulatory compliance costs.
    The FCC failed to consider adequately the cost that will be 
imposed on consumers which in turn led to the flawed decision 
to impose a one-size-fits-all regulatory regime that penalizes 
small business.
    Second, the FCC failed to analyze properly the impact on 
small businesses required by the Paperwork Reduction Act. It 
estimated with no supporting facts that the burden on small 
business would be less than that on larger businesses.
    That conclusion failed to grasp that small ISPs do not have 
in-house lawyers to review and understand the new disclosure 
rules, do not have the administrative staff to maintain the 
ongoing compliance or the means to measure packet loss.
    Every dollar a small business spends on unnecessary 
regulatory compliance is a dollar not being spent on new hires, 
network upgrades and expansion.
    Third, the record in the follow-on proceeding overwhelming 
supported a permanent exemption. Not a single one of the 
millions of consumers who wrote in to the FCC in the months 
before open Internet was adopted wrote to oppose a permanent 
exemption.
    The FCC has had two opportunities to get it right and we 
would not be here today if the FCC had followed the clear 
record. But they didn't, and now small ISPs face the prospect 
of more FCC proceedings and continuing uncertainty.
    As I sit here today, WISPA members have been declined 
funding. One of our members in Oregon was told by his bank that 
he would not be funded because they were uncertain about the 
regulatory regime.
    Other WISPA members have changed their business plans, cut 
back or redirected investment funding and ordered a higher 
regulatory counsel.
    The reality is clear. Imposing excessive and unnecessary 
burdens on small ISPs has dampened the very investment that has 
made broadband service to rural America possible.
    And as for rate regulation in H.R. 2666, WISPA supports any 
legislation that would prevent the FCC from regulating the 
rates we charge our subscribers.
    Thank you.
    [The prepared statement of Elizabeth Bowles follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Ms. Bowles, thank you for your testimony, and 
to all of our witnesses, thank you.
    I would like to go back to you and start off the 
questioning. Having been a small business owner with my wife 
for 20 years in the broadcast business--we are out of it now 
for more than, well, quite a while--I know what it was like to 
deal with government regulations and all of this.
    Can you tell us what does it really mean to you if you had 
to comply with these new transparency rules? Fundamentally, 
what does that mean?
    What would you have to start monitoring and doing and 
reporting and the kind of staff levels that would take and what 
it takes away from expanding your service?
    Ms. Bowles. Well, what it means specifically is we have to 
get our arms around what the regulations actually require us to 
do and I don't have a grasp of that because my company has 
never been under Title II and I don't know which of these 
provisions are locking and loading and which of them are not.
    So there has to be an analysis done over what applies and 
what doesn't apply.
    Mr. Walden. OK.
    Ms. Bowles. And there is a lot of conversation on the list 
from our members asking just those questions--what does this 
mean, what does it mean that I have to do a transparency 
statement, what does it mean that I need to be more open, what 
does it mean that I have to make my rates available? They don't 
actually understand what the regulation is saying.
    So that is an expense. I need regulatory counsel to explain 
even what I am doing and then there is an ongoing regulatory 
compliance burden.
    And I didn't have a chance to really get into it but in 
addition to that there is the threat of litigation because if 
there is a problem in the net neutrality statement or if there 
is a reason that a consumer feels that they are not being dealt 
with frankly, then there is a potential risk of litigation. So 
I need counsel to deal with that as well.
    One member got a quote from $40,000 is what it would cost 
them. That is the cost of deploying a tower. So I am looking at 
choosing between deploying a tower into a rural community or 
hiring regulatory counsel.
    Mr. Walden. All right.
    Mr. McDowell, in a letter to the committee yesterday, 
Commissioners Pai and O'Rielly expressed their concerns with 
the process by which the FCC decided to extend the exemption, 
focusing primarily on the lack of a cost benefit analysis prior 
to adoption of the rules and the use of the Paperwork Reduction 
Act process as an excuse to delay a final decision.
    How could a thorough cost benefit analysis in this 
situation have benefited the final rules?
    Mr. McDowell. Well, it would glean facts and analyses that 
would help the commission render a final decision. So actually 
the commission sort of got the cart before the horse if it is 
going to adopt a rule and then do the analysis rather than 
doing the analysis and then decide whether or not to adopt the 
rule.
    But it seems to be the intent of the commission to at least 
have a temporary exemption, and if it is going to be a 
temporary exemption why not make this a permanent exemption.
    So there appears to be enough evidence in the mind of the 
majority of the commission that there is an undue burden on 
these smaller companies such as WISPs and others so why not 
make that the permanent public policy.
    Mr. Walden. And by the way, the size of the exemption that 
we picked for the draft legislation or the proposal we are 
talking about here is actually the federal government's 
definition of a small business.
    It is the SBA that comes up with this, size of provider. So 
if you are going to have a small business exemption then we 
ought to have one standard is the theory here and the 
government already sets that standard.
    Does this kind of--and I will get to the rate regulation 
issue and the issue of post facto rate regulation--does that, 
Mr. McDowell, limit innovation?
    I am concerned that companies will be unwilling to create 
new products or engage in new services if they are uncertain as 
to how they will be received by the agency after the fact.
    I am concerned that inquiries like the commission's recent 
request to the wireless providers for information on sponsored 
data plans will create a mother-may-I environment for 
innovation.
    Is that a legitimate concern?
    Mr. McDowell. It is. I mean, let us let history be our 
guide real quickly. Under the Carter administration airlines 
were deregulated--prior to that, trucking and railroads as 
well--from common carrier rate regulation.
    And what we found was the opposite of what all the critics 
of that said happens. So rates went down for consumers.
    Quality went up. Investment went up. Transit time shrunk. 
So in other words, the consumer experience got better at a 
lower cost with more investment.
    So that tells us a couple of things, and by the way, 
similar effect after the 1996 Telecom Act, which was partially 
deregulatory, and this has happened in Europe with railroads 
and telecoms and other contexts, too.
    That tells us that rate regulation, by the way, keeps rates 
artificially high and inhibits constructive risk taking and 
investment.
    And I kept on my desk at the FCC my grandmother's black 
rotary dial phone from St. Angelo, Texas, to remind me of the 
innovation you get from Title II in general and rate regulation 
and that was the state of the art for decades--the black rotary 
dial phone.
    Mr. Walden. Yes. Indeed. All right. My time is expired.
    I thank our panelists again for your comments and your 
answers to our questions and I will turn to my friend from 
California, Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman, and thanks again to the 
witnesses for your fine testimony.
    I want to go to Ms. Bowles first. It is my understanding 
that there is a--you spoke of, essentially, time and cost of 
time and rural areas and the number of customers.
    And I don't know what is based in actual facts, though. It 
seemed as if we are afraid of some big boogeyman out there and 
we think that this might happen and therefore we need a law.
    And laws are a big deal. They are a big deal. So some have 
told me that these revisions are estimated to develop and draft 
and revise the disclosures would require an annual expenditure 
of 16 to 24 hours.
    You are talking about having to hire suites of lawyers. I 
don't know what other word to use. It sounds like an 
exaggeration to me. Now, burdens are burdens and small 
businesses are small businesses.
    What is the largest outfit that you represent? How many 
employees do they have?
    Ms. Bowles. I actually don't know the number of employees. 
They have 200,000 subscribers.
    Ms. Eshoo. Two hundred thousand subscribers.
    Ms. Bowles. And they are probably ten times larger than the 
next largest WISP and the average WISP is between 1,500 and 
2,000 subscribers.
    Ms. Eshoo. So the largest of who you represent has 200,000 
subscribers?
    Ms. Bowles. Yes.
    Ms. Eshoo. Nothing larger than that?
    Ms. Bowles. Not at this time. But they are continuing to 
grow.
    Ms. Eshoo. Well, on this whole issue of what the burden 
would be if it is 16 to 24 hours, as has been reported to me, 
that is about 2.9 seconds a day per year.
    That doesn't seem--see, what I am worried about the end 
result on the consumers and it is being said well, they are 
going to call--they are going to want to have a question 
answered.
    That is the life of a business. You don't have a business 
unless you have customers. Customers are always going to have 
questions.
    So I just want to make sure in this and I am not sure from 
your testimony that it really is clear that the very customers 
that are consumers don't end up being screwed somehow, in plain 
English.
    I have every empathy and respect for small businesses. I am 
the daughter of a small business owner. I worked in that 
business with my father. But I do think that there needs to be 
a balance.
    So I think we are going to have to get more information 
from you because there seems to be an overstatement, in my 
view, of the case and if the largest number of those served is 
200,000, I don't think the burdens that you are talking about, 
it doesn't seem to fit.
    So we are going to be able to ask more questions in writing 
and I plan to do that. So thank you.
    To my friend, Commissioner McDowell, in your statement you 
stated that the no-rate regulation legislation would be 
improved by clarifying two ambiguities.
    In your view, could the current language impact the FCC's 
ability to take action on special access or USF reform?
    Mr. McDowell. Well, I think clarity is always good coming 
from Congress to the FCC.
    Ms. Eshoo. Right.
    Mr. McDowell. So if you have concerns really on any issue I 
think there are probably a whole host of friendly amendments 
that could help clarify. So----
    Ms. Eshoo. I think, Mr. Chairman, that is what I was 
referring to in my opening statement. So I think that that is 
an area that we should work on relative to Mr. Kinzinger's 
legislation so that there is real clarity.
    To Mr. Feld, by the FCC's own data on the small business 
Broadband Deployment Act, it represents over 11 million 
households.
    Do you think it is premature that these rules will have a 
deleterious effect on broadband providers without a 
determination of what the actual burden is on small businesses?
    Mr. Feld. I do think this is premature and that Congress 
will definitely benefit from allowing developments to move 
forward. The FCC is in the middle of its evaluation process.
    I am sympathetic to the problems and burdens for small 
business and this is not the first time the FCC has dealt with 
the very difficult question of how do you balance the needs of 
the customers, which include many small businesses, and the 
needs of the small providers who are, clearly, not in the same 
place as a Comcast or an AT&T where they can do these things 
trivially.
    Nevertheless, I also just would like to point out that 
oftentimes when there is a change in regime people are 
concerned. They have a tendency to look at oh my god, all of 
these terrible things are going to happen, to think about 
worst-case scenarios and, ultimately, these things work out.
    And I do think that Congress will have significant 
opportunity--the FCC will have significant opportunity to 
recalibrate if things do not work out.
    But I do think that we need a record before we move 
forward, particularly in light of the potential unintended 
consequence to consumers and small businesses.
    Ms. Eshoo. Thank you very much.
    Mr. Walden. Just for the record, our legislation has 
nothing in it advocating regime change.
    We will now go to Ms. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    Chairman McDowell, I want to come to you for just a couple 
of points. I am concerned about private sector investment, and 
as we look at 3.9 billion network devices by the time we get to 
2019, which is not my number, not your number--it is a number 
that the experts give us--and we look at a billion dollars in 
investment that has already taken place by the private sector 
to handle broadband expansion.
    And one of the things those of us that have constituents 
that live in underserved areas when it comes to high-speed 
Internet--one of the things we constantly hear is when is this 
going to reach us.
    And we know the fastest path is primarily through private 
sector investment and the ability to do this. But my concern is 
as you look at the private sector investment the effect that 
having the FCC's authority to do rate regulation, having that 
sitting out there undefined, not being corralled, if you will, 
the effect that that is going to have on that investment.
    And I would like to know if you all have looked at what you 
think the decrease in private sector investment will be for 
expansion and building out these networks if the FCC takes this 
authority and runs with it.
    Mr. McDowell. Thank you for the excellent question.
    And now that I am in the private sector I work a lot and 
talk a lot with investors and market analysts, both sort of on 
the venture side and all the way to the secondary market end of 
the ecosphere, and the record in 2010--in May of 2010 the FCC 
initiated its Title II proceeding which then was shelved by 
Chairman Genachowski for the other open Internet order of 2010.
    But during the course of that, during the comment period, 
the record was filled by investors and market analysts of all 
stripes and flavors--small businesses, large businesses--
indicating that Title II and rate regulation in particular 
would squelch investment.
    What the exact number is is hard to tell and also, we don't 
have rate regulation yet but this can be a slow grinding halt. 
It is not like one day it just falls off of a cliff. But the 
reduction in investment over time can slow down considerably.
    So you see just a slow decay or sort of a hardening of the 
arteries, if you will, in the lightning-fast Internet space and 
that would be a shame.
    So it is potentially, in the tens of billions of dollars. 
But every analyst I talk to every week asks me about what the 
future potential rate regulation is on broadband and they are 
very concerned about it.
    Mrs. Blackburn. Well, conversely, then let us look at if 
you provide certainty to the space and the FCC is prohibited 
from moving forward with rate regulation, what do you think the 
increase would be? Is it exponential? Is it unlimited?
    Mr. McDowell. Again, let history be our guide. If you look 
at the investment, the hundreds of billions in infrastructure 
investment since just the mid-90s I think you would see that 
sort of growth line continue.
    I think without some sort of assurance or if there is 
actually the sword of Damocles hanging over----
    Mrs. Blackburn. Yes.
    Mr. McDowell [continuing]. These investors, it will slow 
down.
    Mrs. Blackburn. OK. Let me quickly go to the Small Business 
Deployment Act. I am concerned about that.
    I know these temporary extensions are good but we need 
something that is going to make it permanent.
    And I think of some of my smaller providers like Ritter 
Communications, which serves some of west Tennessee and is one 
of the small disclosures.
    What can they expect if the exemption is not made permanent 
and how will these disclosure requirements affect their ability 
to serve some of these rural and underserved areas which are 
just clamoring they need access to broadband for economic 
development, for enhanced educational opportunities.
    So tell me what Ritter and other small providers would 
expect.
    Mr. McDowell. Is that for Ms. Bowles?
    Mrs. Blackburn. It is for you.
    Mr. McDowell. Oh, for me. Certainly. And I think she is 
actually going to give you an even better answer.
    But the notion that more regulation is going to help 
smaller providers deploy and serve customers in hard to reach 
areas sort of turns all the logic on its head, right.
    So I will let Ms. Bowles elaborate on that but----
    Mrs. Blackburn. OK. That is good. Go ahead. Go ahead.
    Ms. Bowles. Yes. Right now, companies like Ritter and like 
Aristotle are moving into rural areas and deploying and 
bringing much-needed service into the very areas that you are 
talking about and regulation will slow that down.
    It isn't going to augment that in any way. Even taking some 
of the numbers that Congresswoman Eshoo put out there and 
saying that they are accurate, 24 hours is a lot of time in a 
company. Like, there is one in Colorado run by Eaton Rakour and 
he is the only employee of that company.
    He recently hired a second employee. It is his daughter. 
That man doesn't have 24 hours. If a tower goes down, he has to 
go out there. He doesn't have 24 hours in a year to be dealing 
with this regulation, and that is assuming it can all be done 
in-house.
    We don't mind dealing with customer complaints. We don't 
want to pay attorneys to have to deal with this regulation. 
That takes away from our ability to deploy into the same rural 
areas that we all agree are in desperate need of this service.
    We are in Arkansas. You don't have to go very far outside 
of Little Rock and they have, literally, nothing. And this 
regulation and the fact that I have to be concerned about 
spending 80 hours a year on an attorney even that is expensive 
for a business of my size.
    We are not talking about businesses with hundreds of 
millions of dollars in revenue. We are talking about very small 
businesses with one employee and under a thousand customers.
    Mrs. Blackburn. OK. Yield back.
    Mr. Walden. The gentlelady yields back.
    The chair recognizes the gentleman from Pennsylvania, Mr. 
Doyle.
    Mr. Doyle. Thank you, Mr. Chairman.
    Welcome to our panelists and, Commissioner McDowell, it is 
good to see you again.
    Mr. Feld, I have been fighting for a long time for reforms 
to the competitive market for business-to-business high 
capacity data lines, or what we call special access.
    This market is ripe with allegations of price gouging, 
predatory terms and conditions and anti-competitive behavior by 
incumbent telecommunications companies and I am glad to see the 
FCC acting to make the much needed reforms to these markets.
    Tell me, what effect do you think the rate regulation bill 
before us will have on the FCC's ability to complete its 
special access proceedings?
    Mr. Feld. Well, as written I believe it will bring 
everything to a crashing halt.
    It is important to recognize that a legal argument does not 
have to ultimately prevail to prevent the FCC from moving 
forward on important competitive policies and consumer 
protections.
    Some years back, we were involved in the bill shock 
proceeding where, as members know, they were receiving letters 
from constituents that their folks were receiving bills for 
$5,000 because their phone got turned on in Canada.
    And when the FCC went to take action they ran into the 
concern about their authority, that what is called the common 
carrier prohibition would prevent them from applying basic 
consumer protections.
    A requirement to send an alert that you are about to 
generate an overcharge would be preempted by the common carrier 
prohibition because broadband at that time was a Title I 
service.
    It is very easy to see how in the special access 
proceeding, which has been going on for more than 10 years, 
where the GAO has twice reported that the FCC needs to take 
action and where we are, finally, after a mound of evidence has 
been collected, a framework established, we are on the verge of 
being able to put this thing to bed and get it done and stop 
monopoly pricing, now, a new broadly-worded sweeping law will 
be introduced which will bring everything to a halt and may 
force the process to be discontinued altogether.
    Mr. Doyle. A number of ISPs have announced plans to 
institute zero rating policies. These plans allow ISPs to 
designate certain types of Internet traffic as not counting 
against a consumer's data cap.
    I am very concerned that some of these plans involve ISPs 
zero rating their own services, particularly video services 
that compete against over-the-top services like Netflix, Amazon 
Prime, iTunes, forcing consumers to use their own data with a 
competing service while zero rating their own services.
    It seems blatantly anti-competitive to me. And 
additionally, there is reports that ISPs are establishing paid 
zero rating agreements where edge providers have to pay the ISP 
to get their data zero rated.
    Most worrisome is reports that companies are using the 
guise of zero rating to throttle entire classes of content 
without even notifying their customers.
    Aggressive zero rating policies paired with restrictive 
data caps threaten the very core of the open Internet in the 
dynamic ecosystem of the competitive services we have all come 
to enjoy.
    What effect do you think this rate regulation bill before 
us will have on the FCC's ability to police this type of 
behavior?
    Mr. Feld. Well, I am very concerned about that. It would 
seem that--as Commissioner McDowell said, he would like to 
actually have this clarified to make sure that it would 
absolutely prevent the FCC from going after even basic fraud.
    There are 12,000 complaints at the FCC already about 
Comcast having inaccurate broadband data meters. So that even 
if we accept that it is OK for them to not count their own 
product stream as opposed to counting everybody else's 
streaming product like Amazon or Netflix, even if we were to 
accept data as OK and not anti-competitive, which raises 
particular concerns, we have thousands of customers complaining 
that the broadband meters that they use are inaccurate, that 
Comcast does not adequately explain the charges of where they 
come from.
    And I think everyone on this committee has read the joys of 
trying to work your way through the Comcast complaint system to 
have these charges explained and potentially reversed.
    It is, even from a basic consumer protection standpoint, 
very troubling to have such a sweeping, broadly-worded law 
injected into this process, and when we look at defending the 
core net neutrality principles, which everybody has said there 
is broad consensus on from many Republicans as well as from 
Democrats, I would say that Ms. Matsui is absolutely correct, 
that it becomes effectively impossible for the FCC to enforce 
its core net neutrality principles, which are exceedingly 
popular and on which there is widespread consensus, because any 
of them can be interpreted as either directly or indirectly 
regulating the rate by--at which broadband services are 
offered.
    Mr. Doyle. Mr. Chairman, thank you.
    Mr. Walden. You are more than welcome.
    And we will now turn to the vice chair of the subcommittee, 
the very capable Mr. Latta.
    Mr. Latta. Well, thank you, Mr. Chairman.
    Mr. Walden. I can be more complimentary now that Ohio and 
Oregon aren't playing the national championship.
    Mr. Latta. That is right. But, again, thanks for holding 
today's hearing. Again, thanks for our panel for very good 
testimony today.
    Ms. Bowles, if I could start with you. I would like to kind 
of combine a couple questions right off the bat because I think 
that we all have--a lot of our districts look very similar to 
one another.
    And last year I was contacted by a company in my district 
called Amplex, which serves about 5,500 customers, and they 
made me aware of their concerns about losing the exemption to 
enhanced transparency rules for small providers because if the 
exemption were to expire they would incur additional legal 
costs, which you have been really explaining here in what it 
would do in network and monitoring costs that they simply could 
not afford.
    In your testimony you also recognized how making the 
transparency exemption for small ISPs permanent keeps resources 
where they should be--expanding the company, hiring more 
employees, upgrading the network and providing better service 
to rural and underserved Americans.
    Two questions, and I am going to also have you maybe back 
up to what the gentlelady--the ranking member--had asked to Mr. 
McDowell.
    First, why do you think the FCC ignored hundreds of 
comments and letters to make the exemption permanent and only 
extended it by one year? And if you would also like to 
elaborate a little bit on the ranking member's question to Mr. 
McDowell.
    Ms. Bowles. I think that the FCC has some discomfort and, 
obviously, I am not in their mind and so I don't know what 
their thinking is. The record was extremely one-sided.
    There is not anything in the record that indicates that 
small businesses are the bad actors. There is not a single idea 
in the record that the small businesses are the ones that are 
engaging in these predatory practices.
    Companies like mine don't have the market power to 
influence in the way of a company like Comcast. And so I 
believe that the FCC hasn't done its homework.
    I go back to what Commissioner McDowell said. It didn't do 
its homework. It got its cart before the horse. I think that is 
a very good way of putting it.
    It wanted to get this out there as quickly as it could and 
it, essentially, punted on the issue of the small business 
exemption.
    Mr. Latta. Why would they want to get it out there that 
quickly then?
    Ms. Bowles. Hmm?
    Mr. Latta. If they didn't do their homework, why do you 
think they wanted to get it out there so quickly?
    Ms. Bowles. I think they wanted to get the open Internet 
order out, and when we had our meetings with the FCC prior to 
that order and we were saying you have not looked under the 
Paperwork Reduction Act, you haven't looked at the impact on 
small businesses, I think they realized that they hadn't.
    And so they put in the exemption so that they could get the 
order out and, like, punt that down the road and deal with it 
later. And then at the very last minute on the last day when 
that order was set to expire, they punted it for another year.
    I think they are trying to figure out a way--I don't know 
what they are trying to get to. I don't know whether they are 
trying to find a compromise.
    I don't know if they don't like the 100,000 number that 
they were using and if they should be using the SBA definition. 
I don't know where they are coming from on that front.
    But I do know that there was no justification in the record 
for making the exemption temporary. The exemption should have 
been made permanent. It should have been made permanent in 
December.
    There was absolutely nothing to support a temporary let us 
extend this again and create more regulatory uncertainty for 
another year, and that is really the problem. The problem is we 
don't know what to expect.
    Nobody knows what the regulation is going to be at the end 
of the day and it is very difficult to assess how we are 
supposed to respond to something when we don't actually know 
what is going to come out at the very end.
    We live in these communities. We work in these communities. 
We support these communities and we want to bring broadband 
into the communities in which we live. We are very, very small 
businesses and I can't emphasize that enough.
    Even $10,000--I know the owner of Amplex and he has a very 
robust business but it is small by any measure. By any 
definition his business is small, and having to come up with 
even $10,000, $15,000 for regulatory counsel is a huge amount 
of money for a company of that size.
    So I don't feel that it is an exaggeration to say that it 
is impacting our businesses very severely even to get the legal 
advice necessary to understand what we are supposed to do to 
deal with this.
    And we would like certainty. We encourage Congress to act 
to give us that certainty and I think that the appropriate 
thing in light of the record, in light of the fact that we are 
not the bad actors, that is to make this exemption permanent.
    Mr. Latta. Thank you.
    Mr. Feld, if I could ask in my remaining 30 seconds here, 
and you testified about the rural broadband subscribers who are 
in need of protection from fraud or fly-by-night providers.
    Could you describe some of the business models of a fly-by-
night rural broadband provider?
    Mr. Feld. Certainly, and I need to emphasize that we have a 
long history that wherever we establish a permanent exemption 
exempting an entire class of businesses bad actors move in.
    And as a consequence, it is not a question of the providers 
that we are--that we have today in the market that troubles me.
    I have worked with WISPA and with Ms. Bowles on a number of 
spectrum issues and I am, in fact, very supportive of their 
efforts to bring broadband to rural America and I am happy to 
testify to that when we have a spectrum hearing.
    But I do worry that once we put out a sign out there that 
says this is a great place to go if you want to set up a scam 
operation because you can't be held accountable that people 
will take advantage of that.
    In particular, I worry about a failure to disclose about 
network management practices where extra charges would be put 
in. If I were a bad actor looking to scam small businesses, I 
would offer them great introductory rates. I would offer an----
    Mr. Latta. Yes. We are running out--if I could just ask 
real quickly, could you point us to one of those actors, like, 
an example?
    Mr. Feld. As in an example in the real world today?
    Mr. Latta. Right. One of those type of nefarious type 
operators.
    Mr. Feld. I am sorry. I am not sure that I understand the 
question. Specifically with regard to the FCC's transparency 
rules?
    Mr. Latta. Do you have the evidence to those type of 
operators and can point us to one of those type of operators?
    Mr. Feld. Well, the FCC continues to receive complaints on 
a regular basis. Most of them, it is true, concern the larger 
operators, which is not surprising because they have the larger 
number of customers. With regard to small businesses, I am 
happy to----
    Mr. Latta. If I could ask you to follow up to the committee 
with some written examples, we would appreciate that.
    Mr. Feld. Certainly.
    Mr. Walden. We now need to turn to the gentlelady from New 
York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman, and I thank 
our ranking member for holding this hearing. To the panelists, 
thank you for lending your expertise to the examination of 
today's legislation.
    Mr. Feld, the transparency rule has been an important 
staple of the FCC's net neutrality rules for some time. As they 
say, knowledge is power.
    Could you briefly explain what the transparency rule and 
its enhancements seek to accomplish and why it may be so 
important?
    Mr. Feld. Certainly. The transparency rule, and there has 
been broad bipartisan consensus about the value of 
transparency, seeks to provide to subscribers a clear 
understanding of how the provider will manage the network--what 
the capacities of the network is--from a business perspective, 
whether the network is actually up to the task that you need to 
hire it for.
    This encourages market competition, protects consumers, 
businesses and innovators. We have a broad policy in this 
country of encouraging telecommuting, of increasing traffic to 
broadband and if I am a small business operator--an architect, 
for example, that uses very heavy data-intense files, gigabits 
of data which is not necessarily the same as the needs of 
another small business, I need to know if the broadband 
provider I am choosing can handle the kind of business that I 
am running.
    I am a private subscriber but I spend a lot of time doing 
high bandwidth things--following hearings in Congress, for 
example, but also talking to my mother in Boston with 
Parkinson's--and those sorts of things take a lot of bandwidth.
    I need to know when I am choosing, since I am lucky enough 
to be in an area with choice, which providers are going to 
impose limits on things like my video calls and my streaming 
and how they will manage these things when there is congestion.
    Ms. Clarke. And I understand there is a difference between 
the small business definition that the FCC uses for 
transparency exemption compared with the definition in the 
discussion draft.
    Can you briefly explain the difference and the impact it 
has?
    Mr. Feld. Certainly. One of the things that is important to 
recognize is the SBA, and for many years the FCC and other 
agencies that deal with specific industries, do not employ a 
single definition for what constitutes a small business.
    SBA and the FCC have always looked to the particular 
sectors of the telecommunications market. So a small business 
from a television perspective means something different from a 
small business, from a cable perspective, from a wireless 
provider and so on, including broadband providers.
    We have, in the broadband industry, a huge disparity 
between the large cable providers and the large telephone 
providers and wireless companies, which have millions of 
customers and where they are able to achieve economies of 
scale, and very small providers who do not have the economies 
of scale, who have different costs and expenses for whom relief 
may be appropriate.
    So the FCC, in using its general definition, crafts a 
definition and SBA similarly crafts a definition suitable to 
the broadband industry specifically.
    In this case, we are talking about an expansion of, I am 
given to understand, about 85 percent over and above the 
current SBC exception.
    These are businesses that have been subject to the 
transparency requirements for six months and there is no 
evidence that these businesses are suffering any of the 
concerns that Ms. Bowles has suggested afflict smaller 
companies.
    And as a consequence, we would look at doubling the number 
of Americans who lose the benefits of transparency and include 
companies that, by the standard definitions in the industry, 
would be considered to be mid-size carriers rather than small 
carriers.
    Ms. Clarke. Thank you.
    Ms. Bowles, in your testimony you noted several times the 
enhancements to the transparency rule would place an inordinate 
burden on your members.
    Could you explain precisely what this burden would be for 
your members?
    Ms. Bowles. The enhanced transparency requires additional 
disclosures which have to meet certain standards that have been 
set by the FCC.
    Those standards are vague. It is not clear what it is 
exactly that we are supposed to be doing and a lot of the FCC's 
determinations are going to be made sort of after the fact or 
through litigation and in the courts.
    This is more of a direct regulation but what determines 
reasonable rates is not defined.
    What includes sufficient transparency or adequate 
transparency? That has all got to be litigated through the 
courts or done through rural rate making through the FCC. We 
don't really know.
    So we are taking our best guess at what we are supposed to 
be doing, and we may do our absolute best effort to find out 6 
months later that it wasn't what the FCC had in mind or it 
isn't sufficient.
    We may end up in litigation. We are subject to frivolous 
complaints, potentially, from customers who feel that they 
haven't been disclosed properly and we don't have enough 
guidance to know what it is that we are supposed to be doing.
    So we are looking to regulatory counsel to give us that 
guidance but they don't know either because the guidance is not 
coming out of the FCC and it is not coming out of anywhere 
else.
    And so until this is settled and we understand what it is, 
we have to have some better guidance, and just to speak 
personally from my business, we do believe in an open Internet. 
We do disclose our policies to our customers.
    I have no idea whether that disclosure is sufficient under 
these enhanced disclosure requirements and I have no way to 
find that out other than to hire an attorney to give me an 
opinion as to whether our disclosures are sufficient, and it is 
expensive.
    Mr. Walden. The gentlelady's time has expired.
    We will turn to the gentleman from New Jersey, Mr. Lance.
    Mr. Lance. Thank you, Mr. Chairman.
    I have from the CTIA, the wireless association, fine 
information regarding the blocking of robocalls perhaps that 
might be utilized and I ask unanimous consent to place that 
information in the record.
    Mr. Walden. Without objection.
    Mr. Lance. Thank you, Mr. Chairman.
    Commissioner McDowell, you say that the order does not 
proscribe ex post facto rate regulations. Could you describe an 
example in which the FCC might engage in an ex post facto rate 
regulation and what would it look like?
    Mr. McDowell. So, hypothetically, what we are talking about 
there is if whether it is the interconnection points or for end 
users or whatever. It could be at any point in the network.
    Someone brings a complaint to the FCC. They say look, they 
are giving us access or whatever but we think the rate is too 
high. And the commission will say look, we are not going to 
engage in rate regulation but you are right, that rate is too 
high.
    So through an enforcement proceeding it would be 
essentially a rule making and that is essentially the 
implementation of what we call a price cap regime. This is not 
rate of return. It is sort of a de facto price cap.
    So that then creates more uncertainty in the market--well, 
what is too high, what is just right, what is the Goldilocks 
price here?
    Mr. Lance. Thank you. And any response to the claim that 
the bill prohibiting rate regulation could result in prolonged 
litigation uncertainty, from my perspective, doesn't current 
ambiguity and overly broad rules also lead to the fact that 
there might be litigation?
    Mr. McDowell. Sure. I mean, it is important to note that 
just Sections 201 and 202 of the 1934 Act have been litigated 
about 400 times in the appellate courts and over 1,000 times 
within the FCC administrative regulation. And that is just two 
sections of Title II, both of which, by the way, deal with rate 
regulation.
    So I think we can expect that in the future, should there 
be rate regulation, even if it is sort of this de facto ex post 
type regulation.
    Mr. Lance. Thank you. Would anybody else on the panel like 
to comment? Mr. Feld, yes.
    Mr. Feld. Thank you. I do wish to express a couple of 
points.
    One is what concerns me is when Congress took this approach 
in 1984 with regard to cable and in the 1984 Cable Act 
preempted all forms of rate regulation including the kinds 
described by Commissioner McDowell, it turned out to be a 
disaster.
    The price of basic cable service escalated. Cable operators 
were quick to take advantage of their incumbency and engage in 
broad anti-competitive action.
    By contrast, the Title II Section 201, which is what we are 
talking about here, is the period where Commissioner McDowell 
agrees that investment telecommunications under the 1996 act 
flourished.
    Those are the conditions under which the wireless industry 
flourished, and when those industries have begun to consolidate 
and begin to overcharge consumers it is the ability of the FCC 
to come in and act, which has helped to restrain them.
    If the prices are generally monopoly rate prices and 
therefore people come to the FCC saying they are too high, I 
would hope that the FCC would act to constrain genuine monopoly 
rate prices.
    I think that, additionally, as Commissioner McDowell noted 
earlier, this is not going to happen overnight in terms of 
impacts. When we are talking about these things potentially if 
there are problems it will be a gradual process that emerges.
    I think the Congress will benefit enormously from seeing 
how this develops, allowing the FCC to resolve the existing 
uncertainty rather than perpetuating uncertainty by passing 
laws before we know what the final effect will be.
    Mr. Lance. Mr. McDowell.
    Mr. McDowell. Thank you very much.
    So a couple things. First of all, cable rates are not 
regulated. So the notion that they have been or should be is 
incorrect.
    By the way, also information services, which is what we 
called these things until last year--broadband internet 
access--had no transparency requirement before the 2010 open 
Internet order, right.
    So as Ms. Bowles has pointed out, the record before the FCC 
does not contain really even a scintilla of evidence that 
certainly WISPs or smaller Internet services providers are 
engaging in fraud and deceptive practices and all the rest.
    And, by the way, one of the problems with the Title II 
classification is that it took away jurisdiction from the 
Federal Trade Commission under Section V of the Federal Trade 
Commission Act to protect consumers.
    That was the cop on the beat that people say is needed. 
They took a cop off of the beat and sent it to a different 
agency which doesn't have the same expertise as the Federal 
Trade Commission does.
    So we haven't had information services rate regulated, 
cable has not been rate regulated forever, and so the notion 
that somehow there was this utopia where there was command and 
control rate regulation and everything was fine is just not 
true in this space.
    The Internet has flourished precisely because it migrated 
further away from government involvement.
    Mr. Lance. Thank you. My time has expired. Thank you, Mr. 
Chairman.
    Mr. Walden. Let us see. Next up the gentlelady from 
Colorado, Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    I want to thank the panelists for coming today. I am sorry 
I was late but I actually had my own bill out for hearing in 
another subcommittee.
    I did want to ask--as the FCC's net neutrality order 
continues to be implemented, one of the concerns that we heard 
is that there is regulatory uncertainty costs to potential 
Title II regulation and so I wanted to talk about that a little 
bit.
     First of all, Mr. Feld, H.R. 2666 seeks to bar rate 
regulation under the net neutrality order and I am wondering 
without clearly defining regulating the rates would this bill 
create more or less uncertainty for telecom companies and, 
being a lawyer, I always ask this question--would it result in 
additional litigation?
    Mr. Feld. Well, I think that it definitely, when you have 
broad-sweeping language with undefined terms but where the 
breadth of the language indicates a congressional intent to 
prevent even basic consumer protection such as protection 
against monopoly rates, this is going to create enormous 
uncertainty.
    There is a conflict here in that there is a claim that we 
are not going after the core Title II protections. We are not 
going after the core bright line rules that the FCC 
established.
    We are only going after rate regulation. But without 
defining this we have essentially said yes, but anything you do 
to actually enforce the rules you have could be considered rate 
regulation and that is just going to encourage an enormous 
amount of uncertainty and litigation.
    I also must respond just a little bit to Commissioner 
McDowell in saying the sweet spot we have now is exactly the 
one. It is not command and control tariffing, which everybody 
agrees is bad.
    It is not the Wild West, where a handful of companies in a 
concentrated industry decide what the prices are to be on 
critical infrastructure. It is the current sweet spot of just 
don't rip off consumers and keep things reasonable, OK?
    Can we just make an honest profit and not a monopoly 
profit? And I think the FCC ought to remain in a position to 
make sure that broadband companies make healthy returns but 
have to work for a living and satisfy consumer demands to do 
so.
    Ms. DeGette. What do you think about that, Commissioner 
McDowell? Obviously, you have a few.
    Mr. McDowell. There is a lot there so which are you 
referring to?
    Ms. DeGette. Well, in particular, the definition of 
regulating the rates. Do you think that is going to lead to 
more litigation since----
    Mr. McDowell. Well, regulation is going to lead to more 
litigation, absolutely, even if it is----
    Ms. DeGette. But the fact that it is not so clearly defined 
in the legislation.
    Mr. McDowell. Well, I sort of offered a couple of ideas--
general categories of ideas as to how you could define it, I 
think, better.
    You know, in terms of consumer protection I think there 
could be probably friendly amendments offered to where you 
could find consensus on that. I don't think----
    Ms. DeGette. So you share my concern that that term might 
be over broad in the legislation?
    Mr. McDowell. Well, my testimony speaks for itself.
    Ms. DeGette. Yes or no will work.
    Mr. McDowell. Yes, there could be some clarity involved 
there.
    Ms. DeGette. Thanks. OK. I think it would be really great 
if you could work with us on helping to clarify that if you 
have some ideas----
    Mr. McDowell. Be happy to. Happy to work with you.
    Ms. DeGette [continuing]. We would love to hear it.
    Mr. McDowell. OK.
    Ms. DeGette. Now, it is my understanding that the FCC 
forbore itself from the portions of Title II that it would need 
an order to set the rates of Internet service providers.
    So I am wondering, Commissioner, what would be required for 
a future FCC commissioner to set the rates for ISPs.
    Mr. McDowell. To prohibit a future FCC from doing that?
    Ms. DeGette. Right.
    Mr. McDowell. Yes. So I think the seeds for that are 
definitely in the legislation before you today so to help 
prevent that from happening. And, again, this could be the 
bipartisan consensus from President Obama on down.
    Ms. DeGette. So you really think that we could work to 
really hammer out this legislation for more clarity?
    Mr. McDowell. I am very optimistic, absolutely.
    Ms. DeGette. OK. But you think it----
    Mr. McDowell. It would be an honor for me to work with you.
    Ms. DeGette [continuing]. You think it needs some work?
    Mr. McDowell. Absolutely, as I said in my written 
testimony.
    Ms. DeGette. OK. Great. Thanks. I yield back.
    Mr. Walden. The gentlelady yields back. The chair 
recognizes the gentleman from Kentucky, Mr. Guthrie.
    Mr. Guthrie. Thank you, Mr. Chairman, and thank you all for 
being here.
    And Mr. Feld, I want to ask you a question. You argue that 
there is no need to grant an exemption for small businesses for 
the enhanced transparency rules.
    But in my opinion, the record does not support your 
contention. The record actually indicates that the burdens 
imposed by the enhanced transparency rules could require 
hundreds of hours of compliance work by small ISPs like Ms. 
Bowles' who can ill afford to spend that money on anything that 
does not improve underlying ISP service.
    There are very few arguments that the rules are necessary 
for small businesses. One argument that you make is that the 
transparency requirements are necessary to catch the ``fly-by-
night actors and scammers.''
    But isn't that more like using a sledgehammer to swat a 
fly? And the question I had, really, is why should all small 
business operators be saddled with onerous and costly 
transparency requirements so that we can catch a few bad 
actors?
    Mr. Feld. I am sorry if I am unclear.
    What I believe I said, and what I certainly mean, is not 
that we should not have a set of rules that are sensitive to 
the needs of small carriers.
    I am not even opposed to the FCC deciding that at this time 
we could make the exemption permanent. What I worry about is 
Congress' preemptive effect, and when Congress passes a law, as 
Ranking Member Eshoo said, that is a big deal because it makes 
it impossible for the agency to respond to changing 
circumstances.
    As we move forward and things settle we may need to revisit 
this. We may find that we see the emergence of scams.
    That has been, as I have said, a long history that wherever 
we have set up a permanent congressional exemption to oversight 
or accountability that bad actors move in because they can.
    So, again, I am not against a permanent exemption on a 
complete record. I simply believe the moment now is premature. 
The FCC is in the process of evaluating the record and I 
believe their process is correct.
    I know there has been some suggestion that the cart was 
before the horse. But I would suggest that the FCC determined 
that the enhanced transparency was in the public interest. That 
is self-evident.
    Mr. Guthrie. Thanks. I appreciate you clarifying that, but 
it gets to the fundamental question, and I think throughout 
this city and throughout this history written about this era in 
government is I think Congress has in the past--I think some of 
this is Congress' own fault.
    They have been very deferential to the administration and 
not just here. Everything that we are talking about here. Well, 
I was just in a meeting beforehand in the labor area, and in 
doing so it allows the vagueness.
    It is too hard to get things changed, let us make it open, 
let us make it where the administration can administer--why 
should Congress put something that is too hard to get it undone 
if it needs to be undone?
    And I would argue in EPA, and not just labor meeting, 
whatever, then what happens if the administration doesn't do 
the intent of Congress. And I would certainly say that I think 
it is our responsibility to clarify.
    So I appreciate your position. I think it is our 
responsibility to make sure if it is something we think is in 
the good interest that it is congressionally enforced and 
mandated.
    And, Ms. Bowles, you said the FCC--earlier the FCC punted 
on making the small business exemption permanent? Do you think 
they fell back when they should have?
    Ms. Bowles. That they failed to make it permanent when they 
should have? Yes.
    Mr. Guthrie. You think that it would be--so the question 
also that I hear, and it is not just in this world but it is in 
the entire government world, everywhere I go--and you are a 
small business person--in my district my family has a small 
business, a medium-sized business, so everywhere I go it is not 
just what the rules and regulations are.
    It is just that people don't know what they are going to be 
from day to day or month to month. I had a bill out of this 
full committee in another subcommittee on the health care bill 
for small businesses and even the witness against the bill said 
exactly what was just said is that I believe we should do this 
but let us not make it permanent--let us do a waiver for a year 
to see if this works or not work.
    And that is what I said--throughout government and people 
trying to implement business, grow business and hire people to 
put them to work or just--there is so much uncertainty.
    That is a common word I hear if you go into a restaurant, a 
manufacturing business or in a high-tech business, such that 
you are in.
    So what does the uncertainty of these reporting 
requirements prevent you or help you? I'll let you say----I'm 
not going to prejudice the question--how does it help or hurt 
you in what you want to do as a business person?
    Ms. Bowles. Well, I want to reiterate that all members are 
small. The average WISP has 1,500 to 2,000 customers. They are 
small businesses with very few employees, usually less than a 
handful of employees that are doing this.
    They live in the communities they serve. They are working 
next to their neighbors. They live in the real world and they 
are dealing with real world problems.
    And so what the regulatory uncertainty does is it distracts 
them from dealing with the real world that they are in and 
getting broadband service to their neighbors with this thing 
that is not necessary, based on the record, that causes them to 
turn their attention away from expanding their networks and 
getting broadband into rural America.
    Rural America can least afford additional regulatory 
expense and that is what essentially is happening. The 3,000 
small ISPs are serving the areas in this country that the 
larger providers cannot financially justify going into.
    We are able to do it because the barriers to entry are so 
low because the cost for our members coming in to serve it are 
low enough that we can justify it. If those costs go up, then 
that justification changes. Their community----
    Mr. Guthrie. Thanks. I understand my time has expired. 
Appreciate the answer. Mr. Feld, I appreciate you for 
clarifying as well.
    Thank you. I yield back.
    Mr. Collins. Mr. McNerney, 5 minutes.
    Mr. McNerney. I thank the chairman. I thank the witnesses 
this morning.
    Ms. Bowles, looking at the Small Business Broadband 
Deployment Act, one of the contentious issues is how to define 
a small business.
    If you look at the earlier definition of 100,000 
subscribers, that sounds like a lot to me. I mean, if each 
subscriber is $100 a month and you have 100,000 subscribers 
that's $10 million a month, $120 million a year.
    That is not a small business, in my mind. So what would 
be--how could you define a small business? What would be the 
measure of a small business, in your mind?
    Ms. Bowles. Honestly, I have to defer to the experts in the 
United States government who define that. I understand that 
there are a lot of different definitions for small business and 
the 100,000 number or the SBA's use of a 500,000 subscriber 
number.
    As I said, the majority of our members are significantly 
smaller than that.
    Mr. McNerney. Right.
    Ms. Bowles. That would fit under any definition of small 
business. So from our perspective, the important thing is 
whatever number you end up with it needs to embrace the 
smallest of the small businesses so that they are protected so 
that they can continue to grow their business and continue to 
serve rural America.
    Mr. McNerney. So, is the number of subscribers a good 
metric to define small business----
    Ms. Bowles. It is an adequate metric. It is a proxy for 
revenue. So I suppose it is fine.
    But number of employees is also significant because if you 
have only five employees, even if you have 10,000 subscribers 
it would be a very substantial burden for a company of that 
size.
    So I think you need to look both at how many employees you 
have as well as your revenue or the number of subscribers that 
you have. I don't think it is a singular number necessarily.
    Mr. McNerney. Commissioner McDowell, would you want to 
weigh on this? How would you----
    Mr. McDowell. I think it is a healthy discussion to have 
exactly how you are defining small business--is it on a 
subscriber basis, an employee basis, revenue basis, although 
employees and subscribers, I think, capture a lot.
    I think the point that Ms. Bowles is making is that the 
vast majority, in fact, if not 99.99 percent of WISPA's members 
are mom and pop organizations, quite literally, or dad and 
daughter, as you pointed out, organizations. And so----
    Mr. McNerney. So, 100,000 subscribers seems like a modest--
--
    Mr. McDowell. If you are at a WISP and you have 100,000 
subscribers, roughly, how many employees would you have?
    Ms. Bowles. Oh, wow. You would have to have several hundred 
employees to have 100,000 subscribers. You have to have several 
hundred employees.
    Mr. McDowell. But that could still fit within a small 
business definition?
    Ms. Bowles. That could still fit within a small business 
and it is correct, 99.98 percent of our members fit underneath 
the small business definition provided by the FCC.
    Mr. McNerney. I mean, it sounds like moving from 100,000 to 
500,000 subscribers is a bit of an overreach.
    Mr. Feld, my next question has to do with the Universal 
Service Fund. I think in your testimony you indicated that the 
2666 might impede that development. What is your feeling on 
that?
    Mr. Feld. I have a lot of concerns. The USF reform has been 
very complicated. Part of it is based on a core provision of 
the statute, Section 254, which directs that services should 
not cost substantially more in rural areas than comparable 
services in urban areas.
    So if the core purpose of the statute, particularly for the 
rural high cost fund, is to regulate rates and make them more 
affordable for people and you have a law that says absolutely 
no--under any law can you do anything that regulates rates, 
then I don't see how you avoid the problem of well, the purpose 
of the whole law is to make the broadband affordable. That is 
rate regulation--indirectly through a subsidy, but still rate 
regulation.
    The additional problems are that one of the goals in high 
cost in particular has been to end the system of implicit 
subsidies, intercarrier compensation and termination fees and 
shift to a more straightforward explicit compensation through 
the high cost fund.
    That was in order to balance these things out without 
raising the rate on the ratepayers done by price regulation. So 
and that was challenged and affirmed in the Tenth Circuit.
    But this would give those folks who lost a fairly lengthy 
and contentious litigation a second bite at the apple, and I 
don't see how the FCC doesn't just throw up its hands and put 
everything on hold or abandon the operation altogether.
    Mr. McNerney. OK. I am going to let the commissioner answer 
but please keep it brief.
    Mr. McDowell. Yes. I am sorry. I know we are short on time.
    First of all, I think it will give both of you some comfort 
that in October 2011, three Democrats and one Republican, we 
got together for the first time in history and incorporated 
some reforms for the universal service to extend those 
subsidies to broadband services when they were deemed an 
information service prior to the Title II order of last year.
    So it was the unanimous consensus of the commissioners and 
of the staff at the FCC that you did not have to have broadband 
classified as common carriage and therefore subject to rate 
regulation, which is where I am going with that.
    So that is number one, and that was litigated before the 
Tenth Circuit and upheld. So that was challenged and upheld by 
the courts. So I don't think there is going to be an issue here 
at all.
    But if there is an issue, then the other comfort I would 
like to offer is that perhaps there could be a friendly 
amendment to that regard saying universal service is a carve 
out.
    Mr. McNerney. OK. Thank you for the suggestion.
    I yield back.
    Mr. Collins. The chair recognizes Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Chairman, and thanks to the folks 
here and thank you for holding this hearing to the committee.
    I want to just talk about a couple of bills I introduced: 
2666 and 1301. The Amateur Parity Radio Act has over a hundred 
bipartisan co-sponsors including the chairman, and as a point 
of interest every member of Congress throughout the country has 
at least a few hundred licensed amateur radio operators in 
their district.
    Under current law and regulation in certain areas, ham 
radios are outright prohibited from placing any form of antenna 
on their home, even those as small as a four millimeter 
diameter wire that would run under an awning or flat against a 
house.
    For some, this is merely a nuisance but for others--those 
that go through additional training and certification to become 
an emergency communications volunteer--this can be dangerous.
    During times of emergency, like a hurricane or a tornado, 
amateur radio operators are able to use their skills and 
equipment to create a network of communications for first 
responders when all other networks have failed.
    And as a point of interest, as a military pilot, there were 
a number of times overseas where we would actually use phone 
patches and passcoded messages through ham radio operators to 
our command post, and so I think that is very interesting to 
note that they serve that purpose, too.
    And a quick summary from the FEMA director, Mr. Fugate, on 
the issue he said, ``I think that there is a tendency to 
believe that we have done so much to build infrastructure and 
resiliency in all of our other systems. When everything else 
fails, amateur radio oftentimes is our last line of defense. 
When you need amateur radio, you really need them.'' And I 
think this is very important.
    H.R. 1301 would change some of these issues by implementing 
a reasonable accommodation standard. There is no mandate on the 
placement size aesthetics, as those decisions are left to the 
discussion to take place between ham radio operators and their 
jurisdictions.
    We would just simply add the same standard that has been 
used successfully in municipal areas to other areas.
    Switching gears, the rate regulation bill comes about as a 
result of comments and statements made by the president and by 
Chairman Wheeler.
    Following those statements, Chairman Wheeler and I had a 
conversation in this subcommittee where I asked him the 
question of would you support legislation that simply said 
notwithstanding any provision of law the Federal Communications 
Commission may not regulate the rates charged for broadband 
Internet access service--very simple. And the chairman agreed 
and so we have this bill before us today.
    Simply put, the government should not be in the business of 
regulating the rates of private industry and that is a lesson 
that we learn when we look at failed governments of the 1980s 
in the past in terms of regulating private industry.
    Chairman Wheeler has stated that he will not go down the 
path of rate regulation and I give him credit for that, 
rightfully so. But the power is still there for any future 
chairman.
    In listening to the debate today, some legitimate concerns 
have been raised and I would offer that if it takes some small 
changes to address those concerns I am more than happy to sit 
down with any interested parties.
    We want to do this in a bipartisan way. But I think it is 
important that we have this conversation and I appreciate you 
being here.
    Mr. McDowell, you bring up the risk of not only this FCC 
regulating broadband access rates but a future commission as 
well, and I know you have served under different 
administrations.
    Can you elaborate how that is a concern for you?
    Mr. McDowell. Absolutely. Statutory interpretations can 
change based on the political philosophy and ideology of 
whoever is chair and who constitutes a majority of the 
commission.
    So 8 years ago, for instance, Section 706 was never 
contemplated as giving the FCC some sort of secret expansive 
power over the Internet space. But that came out of the 2010 
order and then it was blessed by two judges on the D.C. 
circuit.
    So that changed dramatically, just the interpretation of 
Section 706, which, at the time of the 1996 act, was considered 
deregulatory, not more regulatory.
    So you want to make sure that what the interpretation by an 
FCC is today remains the same. You want to codify that, 
enshrine that in the statute. That is the only way to really 
have certainty for the long run.
    Mr. Kinzinger. Yes, and I know we are involved in this 
committee in terms of process reform for the FCC, which I think 
is necessary in opening up a lot of the process.
    But I think what is important to note is that big decisions 
like this, without this codified, can be made by a few people--
a few people that make the decision at the moment, and it is 
the jurisdiction of this committee and this Congress to 
regulate things like interstate commerce.
    And when we say we don't want broadband regulated by the 
government, I think we have a rightful position to have that 
debate, have that argument and to get this done.
    And, frankly, again, I would just reiterate my position is 
very bipartisan because the chairman of the FCC agreed with me. 
The president agrees with me. So at this moment of 
bipartisanship in this committee we may as well codify that 
into law.
    So with that, I want to say thank you to you all and I 
yield back.
    Mr. Collins. I thank the gentleman for his questions. The 
chair recognizes Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman, and thank the panel 
for being with us today.
    Ms. Bowles, can you point to any specific flaws in the 
FCC's analysis when the agency attempted to determine how much 
the enhanced transparency requirements would cost small 
businesses?
    How did the agency fail to account for the specific needs 
of small businesses? Can you comment on that?
    Ms. Bowles. Yes. The FCC drew its conclusion from having 
made an assumption that because the business is smaller the 
regulatory burden would be smaller and that is almost exactly 
backwards from the reality.
    A smaller business doesn't have the armies of lawyers. It 
doesn't have the teams that are already meeting regulatory 
burdens that many of the people who are affected by open 
Internet already have in place.
    So the small ISPs weren't in the record and there wasn't an 
analysis done of the actual cost, the actual monetary costs or 
the impact on the networks or the impacts on expansion.
    And I have said this before but we have very, very small 
WISPs for whom this could literally put out of business. They 
have one employee.
    So it is very hard to--I don't think the FCC really did any 
analysis of that side of the equation. They just came off----
    Mr. Johnson. And it is your assessment that that impact on 
small business would be significant?
    Ms. Bowles. Yes.
    Mr. Johnson. OK. Mr. Feld's testimony discusses significant 
unintended consequences of the Small Business Broadband 
Deployment Act including customers turning instead to national 
providers.
    As a representative of the small business community, would 
you like to respond to that?
    Ms. Bowles. I don't think that is a realistic concern.
    Mr. Johnson. OK. And it is not----
    Ms. Bowles. We compete in an open marketplace right now 
with larger providers. My company serves rural communities but 
we also compete in Little Rock, Arkansas.
    We compete directly with AT&T and Comcast and larger 
providers and we compete on service, we compete on locality and 
we compete on price.
    Mr. Johnson. OK.
    Ms. Bowles. And in the rural communities we serve, these 
are our neighbors and our friends and we compete, again, on 
service and on price and it is a competitive marketplace. It 
doesn't concern us at all.
    Mr. Johnson. OK. All right.
    Finally, Ms. Bowles, was there overwhelming support for 
making the small business exemption permanent?
    Ms. Bowles. Yes. To my knowledge, there were no comments 
opposing until the very last moment and before the closing----
    Mr. Johnson. Yes, I want to get into that.
    Mr. Feld, based on the FCC's order, it appears that Public 
Knowledge did not file comments in response to the bureau's 
public notice on this issue.
    In fact, it appears that the only party to disagree with 
the extension at all in the proceeding was Free Press doing so 
not in comments but in an ex parte submission made the Friday 
before the order was released. That is 97 days after the close 
of the comment period.
    So is it correct that Public Knowledge did not file?
    Mr. Feld. We believe the extension for the FCC to complete 
its work was justified.
    Mr. Johnson. No, that is not the question I asked you.
    Mr. Feld. You are correct. We did not file.
    Mr. Johnson. You did not file?
    Mr. Feld. That is correct.
    Mr. Johnson. OK. I yield back. Thank you.
    Mr. Collins. I thank the gentleman for his questions and as 
we bring this hearing to a conclusion, I will recognize myself 
for a couple of minutes here as we wind down.
    So Mr. Feld, I am a little bit confused or concerned about 
Public Knowledge not being supportive of H.R. 2666, which is 
the no rate regulation.
    So I want to make sure if we are on the same page here in 
saying I think, and hopefully you would agree, that the 
president was clear in saying that the FCC should forbear from 
rate regulation. You would agree with this, I am assuming?
    Mr. Feld. Yes, from standard rate regulation.
    Mr. Collins. And then we have Chairman Wheeler also saying 
time and again that he believes in forbearing no rate 
regulation, no filing tariffs. Again, I----
    Mr. Feld. Having once upon a time and long ago done 
tariffing and rate regulation through that fashion, I would not 
wish it on anyone.
    Mr. Collins. So with both the president and the chairman 
saying this, I am a little confused by why Public Knowledge 
wouldn't support H.R. 2666.
    Mr. Feld. Well, as we have heard, there are a number of 
interpretations of what the broad sweeping language of H.R. 
2666 would mean.
    I certainly don't think of preventing monopoly providers 
from charging monopoly prices as being rate regulation.
    On the other hand, we have heard views expressed that even 
that kind of ex ante enforcement of traditional consumer 
protection should be considered rate regulation under the 
statute.
    So while I think that there is agreement on a very broad 
principle, nobody wants to go back to the old days when we were 
all quibbling about what went into the rate base and concerned 
about the ability to raise prices through rate regulation in 
the fashion that Commissioner McDowell described earlier.
    I think that we do have a great deal of concern that where 
providers are charging fraudulent prices, billing in ways that 
are designed to confuse consumers--what I like to refer to as 
the nickel and diming of the American people, which it is the 
FCC's job to stop. I am greatly concerned that the statute as 
written, given its broad sweeping language, would have that 
effect.
    Mr. Collins. Well, I can appreciate your interpretation, 
perhaps, but I would like to think forbearance is forbearance 
and the rate regulation piece was the key sticking point with a 
lot of Republicans on this and we were always uncomfortable 
with the president saying he would forbear on the rate side, as 
did Chairman Wheeler.
    And since a year from now we will have both a new president 
and at some point probably a new chairman, I think at some 
point this Congress could codify where we stand on that.
    So I want to thank the witnesses for their testimony and 
the ranking member has certainly indicated, I think, we have a 
context we can all work with here. That is what the hearing is 
all about.
    Your input has been very valuable, and as we move forward 
in the next month or so into a markup we will take your 
testimony into account and I want to thank you for that and 
also encourage you for the members that ask for some follow up 
if you could provide that in a timely manner that would be 
appreciated.
    So I would remind all members there are ten business days 
to submit questions for the record. I ask the witnesses to 
respond accordingly.
    And without objection, the committee is adjourned.
  
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

             Prepared statement of the Honorable Fred Upton

    Reducing red tape and making the law work for consumers and 
small businesses has been a focus of this committee under my 
chairmanship. Today, this subcommittee will hear from a panel 
of witnesses on four bills that further this important goal in 
the communications and technology sectors so vital to continued 
economic growth and job creation in Michigan and across the 
country.
    H.R. 2669, the Anti-Spoofing Act of 2015 and H.R. 1301, the 
Amateur Radio Parity Act of 2015, are both focused on 
protecting consumers. Whether it is the abuse of technology by 
bad actors or the abuse of powers provided by law, consumers 
deserve honesty and a fair shake. These bills are designed to 
provide just that. H.R. 2669, introduced by Reps. Meng, Barton, 
and Lance, would extend the provisions of the Truth in Called 
ID Act to text messaging and VoIP services--helping protect 
consumers from fraud. And H.R. 1301, authored by Rep. 
Kinzinger, would ensure that those empowered to impose land-use 
restrictions don't place unnecessary bans on HAM radio 
equipment.
    Additionally, we'll discuss two bills designed to protect 
consumers and small businesses from future FCC Chairmen. H.R. 
2666, Representative Kinzinger's No Rate Regulation of 
Broadband Internet Access Act and a discussion draft offered by 
Chairman Walden would ensure that the commitments of this 
administration against regulating rates or unduly burdening 
small businesses have staying power. These are both ideas that 
were generated by the FCC, this legislation would simply make 
them permanent. I thank the witnesses for their testimony.
                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
